Case: 19-40225

Document: 00515424912

Page: 1

Date Filed: 05/21/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-40225

FILED
May 21,2020
Lyle W. Cayce
Clerk

LARRY MICHAEL MAPLES,
Petitioner-Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 6:17-CV-560

Before JONES, HIGGINSON, and OLDHAM, Circuit Judges.
PER CURIAM:*
Larry Michael Maples, Texas prisoner # 1965775, moves for a certificate
of appealability (COA) to appeal the denial of his 28 U.S.C. § 2254 application
challenging his conviction of capital murder. He contends that the district
court erred by dismissing on the merits and without holding an evidentiary
hearing on claims that (1) his trial counsel rendered ineffective assistance by
(a) failing to hire a ballistics expert or a medical expert and (b) advising Maples

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

&

Case: 19-40225

Document: 00515424912

Page: 2

Date Filed: 05/21/2020

No. 19-40225

i

not to testify at trial, and (2) his trial and appellate counsel rendered
ineffective assistance by failing to mount a defense based on sudden passion.
To obtain a COA with respect to the denial of a § 2254 application, a
prisoner must make “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2); Slack u. McDaniel, 529 U.S. 473, 483 (2000). If
a district court has rejected a claim on its merits, the petitioner “must
demonstrate that reasonable jurists would find the district court’s assessment
of the constitutional claims debatable or wrong.”

Slack, 529 U.S. at 484.

Maples fails to make the necessary showing. To the extent that he requests a
COA regarding the district court’s denial of an evidentiary hearing, we
construe his motion as a direct appeal of that issue, see Norman v. Stephens,
817 F.3d 226, 234 (5th Cir. 2016), and affirm.

See Cullen u. Pinholster,

563 U.S. 170, 185-86 (2011).
Accordingly, Maples’s motion for a COA is DENIED, and the district
court’s denial of an evidentiary hearing is AFFIRMED.

2

Case 6:17-cv-00560-RC-JDL Document 30 Filed 02/22/19 Page 1 of 1 PagelD #: 1621

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
LARRY M. MAPLES, #1965775

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:17cv560

FINAL JUDGMENT
The Court having considered Petitioner’s case and rendered its decision by opinion issued
this same date, it is hereby ORDERED that Petitioner’s case is DISMISSED with prejudice.
So ORDERED and SIGNED February 22, 2019.

Ron Clark, Senior District Judge

1

Case 6:17-cv-00560-RC-JDL Document 29 Filed 02/22/19 Page 1 of 12 PagelD #: 1609
i

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
LARRY M. MAPLES, #1965775

§

vs.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:17cv560

MEMORANDUM OPINION ADOPTING THE REPORT
OF THE UNITED STATES MAGISTRATE JUDGE
Petitioner Larry Michael Maples, proceeding pro se and in forma pauperis, filed this
petition for writ of habeas corpus under 28 U.S.C. § 2254 challenging his Van Zandt County
conviction. The cause of action was referred to the United States Magistrate Judge, the Honorable
John D. Love, for findings of fact, conclusions of law, and recommendations for the disposition of
the petition.
I. Procedural Background
A jury convicted Maples of capital murder and he was sentenced to life imprisonment
without the possibility of parole. Maples filed a direct appeal, and the Twelfth Court of Appeals
affirmed his conviction. See Maples v. State, 2016 WL 3475334 (Tex.App.—Tyler 2016, pet.
ref d) (unpublished). The Texas Court of Criminal Appeals refused his petition for discretionary
review in November 2016. Maples then filed a state application for a writ of habeas corpus in
June 2017, which was denied by the Texas Court of Criminal Appeals on the findings of the trial
court. He then filed this timely federal petition in October 2017.
II. Maples’ Federal Habeas Claims
Maples argued that his constitutional rights were violated through his counsel’s
ineffectiveness. Specifically, he maintained that counsel was ineffective by (1) failing to
\

hire/consult with a ballistics or reconstruction expert; (2) failing to hire a medical expert to
1

Case 6:17-cv-00560-RC-JDL Document 29 Filed 02/22/19 Page 2 of 12 PagelD #: 1610

challenge the State’s autopsy findings; (3) advising him not to testify; and (4) failing to build a
defense surrounding a “sudden passion.” Upon order of the Court, Respondent filed a response to
Maples’ petition. Respondent insisted that counsel was not ineffective and that Maples’ claim
concerning a potential “sudden passion” defense is unexhausted. Maples filed a reply to the
response.
Judge Love issued a Report, (Dkt. #22), recommending that Maples’ habeas petition be
dismissed with prejudice. Judge Love also recommended that Maples be denied a certificate of
appealability sua sponte. Maples has filed timely objections, (Dkt. #24).
III. Legal Standards
1. Federal Habeas Review
The role of federal courts in reviewing habeas corpus petitions filed by state prisoners is
exceedingly narrow. A prisoner seeking federal habeas corpus review must assert a violation of a
federal constitutional right; federal relief is unavailable to correct errors of state constitutional,
statutory, or procedural law unless a federal issue is also present. See Lowery v. Collins, 988 F.2d
1364, 1367 (5th Cir. 1993); see also Estelle v. McGuire, 503 F.3d 408, 413 (5th Cir. 2007) (“We
first note that ‘federal habeas corpus relief does not lie for errors of state law.’”) (internal citation
omitted). When reviewing state proceedings, a federal court will not act as a “super state supreme
court” to review error under state law. Wood v. Quarterman, 503 F.3d 408, 414 (5th Cir. 2007).
Furthermore, federal habeas review of state court proceedings is governed by the
Antiterrorism and Effective Death Penalty Act (AEDPA) of 1996. Under the AEDPA, which
imposed a number of habeas corpus reforms, a petitioner who is in custody “pursuant to the
judgment of State court” is not entitled to federal habeas corpus relief with respect to any claim
that was adjudicated on the merits in State court proceedings unless the adjudication of the claim—

2

Case 6:17-cv-00560-RC-JDL Document 29 Filed 02/22/19 Page 3 of 12 PagelD #: 1611

1. resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established law, as determined by the Supreme Court of the
United States; or
2. resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceedings.
28 U.S.C. § 2254(d). The AEDPA imposes a “highly deferential standard for evaluating state
court rulings,” which demands that federal courts give state court decisions “the benefit of the
doubt.” See Renico v. Lett, 559 U.S. 766, 773 (2010) (internal citations omitted); see also
Cardenas v. Stephens, 820 F.3d 197, 201-02 (5th Cir. 2016) (“Federal habeas review under the
AEDPA is therefore highly deferential: The question is not whether we, in our independent
judgment, believe that the state court reached the wrong result. Rather, we ask only whether the
state court’s judgment was so obviously incorrect as to be an objectively unreasonable resolution
of the claim.”). Given the high deferential standard, a state court’s findings of fact are entitled to
a presumption of correctness and a petitioner can only overcome that burden through clear and
convincing evidence. Reed v. Quarterman, 504 F.3d 465, 490 (5th Cir. 2007).
2. Ineffective Assistance of Counsel
To show that trial counsel was ineffective, Maples must demonstrate both deficient
performance and ensuing prejudice. See Strickland v. Washington, 466 U.S. 668 (1984). In
evaluating whether an attorney’s conduct was deficient, the question becomes whether the
attorney’s conduct fell below an objective standard of reasonableness based on “prevailing norms
of practice.” See Loden v. McCarty, 778 F.3d 484, 494 (5th Cir. 2016).
Moreover, to establish prejudice, the petitioner must show that there is a reasonable
probability that—absent counsel’s deficient performance—the outcome or result of the
proceedings would have been different. Id.\ see also Reed v. Stephens, 739 F.3d 753, 773 (5th Cir.
2014) (quoting Strickland, 466 U.S. at 687)). It is well-settled that a “reasonable probability” is

3

Case 6:17-cv-00560-RC-JDL Document 29 Filed 02/22/19 Page 4 of 12 PagelD #: 1612

one that is sufficient to undermine confidence in the outcome of the proceedings. Strickland, 466
U.S. at 694. Importantly, the petitioner alleging ineffective assistance must show both deficient
performance and prejudice. See Charles v. Stephens, 736 F.3d 380, 388 (5th Cir. 2013) (“A failure
to establish either element is fatal to a petitioner’s claim.”) (internal citation omitted). Given the
already highly deferential standard under the AEDPA, establishing a state court’s application
whether counsel was ineffective “is all the more difficult.” Harrington v. Richter, 562 U.S. 86,
105 (2011); see also Charles v. Stephens, 736 F.3d 380, 389 (5th Cir. 2013) (“Both the Strickland
standard and the AEDPA standard are highly deferential, and when the two apply in tandem,
review is doubly so.”) (internal quotations and citation omitted).
IV. Discussion and Analysis
Maples raises five separate objections to Judge Love’s Report. For the reasons expressed
below, his objections must be overruled.
1. Certificate ofAppealability (COA)
In his first objection, Maples maintains that his habeas petition has not been denied by this
Court and, therefore, he has no reason to file an appeal. He then proceeds to explain the appellate
process. Maples insists that “at no place in the federal rules for §2244 and §2254 does the
petitioner have the burden of proof for a COA.” He argues that the Report “has combined the
[addressing] of the merits along with its assessing eligibility for COA,” which is contrary to the
holding in Buck v. Davis, 137 S.Ct. 759 (2017).
Maples wholly misconstrues the COA process and Judge Love’s recommendation. First,
as mentioned in the Report, even though Maples did not file a notice of appeal at this state of the
proceedings, the Court may address whether he would be entitled to one. See Alexander v.
Johnson, 211 F.3d 895, 898 (5th Cir. 2000) (A district court may sua sponte rule on a certificate

4

Case 6:17-cv-00560-RC-JDL Document 29 Filed 02/22/19 Page 5 of 12 PagelD #: 1613

of appealability because “the district court that denies a petitioner relief is in the best position to
determine whether the petitioner has made a substantial showing of a denial of a constitutional
right on the issues before the court. Further briefing and argument on the very issues the court has
just ruled on would be repetitious.”).
A certificate of appealability may issue only if a petitioner has made a substantial showing
of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To make a substantial showing, the
petitioner need only show that “jurists of reason could disagree with the district court’s resolution
of his constitutional claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
Here, Judge Love found that Maples wholly failed to demonstrate the denial of a
constitutional right and, consequently, recommended that he was not entitled to a certificate of
appealability. To obtain a certificate of appealability, Maples must show a constitutional violation
or that jurists of reason would disagree with the district court’s resolution. Miller-El v. Cockrell,
537 U.S. 322, 327 (2003). While the Supreme Court in Buck articulated that the COA inquiry “is
not coextensive with merits analysis,” this means that—in theory—a district court may still find a
claim meritless and grant a COA, if the Court believes that reasonable jurists could disagree. Buck,
137 S. Ct. 773 (quoting Miller-El, 537 U.S. at 336). However, here, Judge Love found that
Maples’ claims were patently meritless and that reasonable jurists could not disagree. Maples’
objection on this point is without merit.
2. Factual Background
Maples takes issue with the Report’s use of the facts surrounding his crime—which were
extracted directly from the Twelfth Court of Appeals’ opinion on his direct appeal. Specifically,
he maintains that the facts are “simply not true” and, therefore, an evidentiary hearing is required.

5

Case 6:17-cv-00560-RC-JDL Document 29 Filed 02/22/19 Page 6 of 12 PagelD #: 1614

Maples further insists that the M.C. (the victim’s lover) lied and “injected false evidence into this
case” because the police planted false evidence—namely, the pillow over the victim’s head. He
sought ballistics testing, which he claimed would have shown that the victim’s lover lunged at him
first.
His objection on this point is without merit. The appellate court found these facts. The
facts are presumed correct absent clear and convincing evidence. See Bostick v. Quarterman, 580
F.3d 303, 306 (5th Cir. 2009) (“Further, state court determination of factual issues ‘shall be
presumed correct,’ and the petitioner ‘shall have the burden of rebutting the presumption of
correctness by clear and convincing evidence.’”) (quoting 28 U.S.C. § 2254(e)(1)). Maples has
not rebutted this presumption of correctness by clear and convincing evidence because, as Judge
Love found, Maples’ reliance on a ballistics expert would have been immaterial to whether Maples
shot his wife several times. Further, Maples raised this ballistic-trajectory claim in his state habeas
application, which was denied. That denial is entitled to deference.
Maples is not entitled to an evidentiary hearing on this matter. His request for an
evidentiary hearing is governed by Rule 8 of the Rules Governing Section 2254 cases in the United
States District Courts. Rule 8(a) specifies that the determination of whether an evidentiary hearing
is required is to be made after an answer and state court records are filed. After a review of the
record and answer, Judge Love issued a Report finding that Maples’ claims were without merit
and, by implication, that no evidentiary hearing was necessary. On objection, Maples fails to
illustrate that an evidentiary hearing is required because he has not shown that the appellate court’s
articulation of the facts were incorrect through clear and convincing evidence. His objection is
therefore without merit.

6

Case 6:17-cv-00560-RC-JDL Document 29 Filed 02/22/19 Page 7 of 12 PagelD #: 1615

3. Failure to Call a Witness and Expert Testimony
In his third objection, Maples asserts that “the [burden] should not be shifted to Maples to
hire an expert post-conviction.” He then states that he provided the Court with several cases to
demonstrate “why counsel should hire experts when the state’s case relies heavily on [its] own
experts.”
Once again, Maples’ objection is without merit. In his petition, he argued that counsel was
ineffective for failing to hire a medical expert to challenge the autopsy results. Maples explained
that medical expert testimony would confirm that the victim was not shot “twice with the same
bullet.” Maples states that “one shot is too many,” but “he should not be held accountable [for]
excess shots he never fired.” He again insists that [M.C.] lunged at him when [M.C.] was shot.
He also maintained that counsel was ineffective for failing to hire or consult a
ballistics/reconstruction expert, as “counsel blindly accepted the State’s case without his own
professionally objective investigation into the facts and circumstances.”
Judge Love found that Maples failed to demonstrate that counsel was ineffective because
he failed to meet the necessary requirements and because his claims were purely conclusory,
hypothetical, and speculative.
Trial counsel has a duty to make a reasonable investigation of a criminal defendant’s case
or to make a reasonable decision that an investigation is not necessary. See Ransom v. Johnson,
126 F.3d 716, 722 (5th Cir. 1997); Green v. Cockrell, 67F. App’x 248, 2003 WL 2114722 *3 (5th
Cir. 2003) (unpublished). A habeas petitioner alleging that an investigation was inadequate or
nonexistent must allege—with specificity—what the purported investigation would have revealed
and how it would have affected the outcome of the trial. See Druery v. Thaler, 647 F.3d 535, 541
(5th Cir. 2011) (quoting Nelson v. Hargett, 989 F.2d 847, 850 (5th Cir. 1993)).

7

Case 6:17-cv-00560-RC-JDL Document 29 Filed 02/22/19 Page 8 of 12 PagelD #: 1616

Moreover, to prevail on a claim of ineffective assistance for counsel’s failure to call a
witness, the petitioner must name the witness, demonstrate that the witness was available to testify
and would have done so, explain the content of the witness’s proposed testimony, and show that
the proposed testimony would have been favorable to him. Day v. Quarterman, 566 F.3d 527, 538
(5th Cir. 2009). The Fifth Circuit has repeatedly noted that:
Complaints of uncalled witnesses are not favored in federal habeas corpus review because
allegations of what a witness would have testified are largely speculative. Where only the
evidence of a missing witnesses’ testimony is from the defendant, this Court views claims
of ineffective assistance with great caution.
Sayre v. Anderson, 238 F.3d 631, 635-36 (5th Cir. 2001) (quoting Lockhart v. McCotter, 782 F.2d
1275, 1282 (5th Cir. 1986)); U.S. v. Fields, 761 F.3d 443, 461 (5th Cir. 2014); Evans v. Cockrell,
285 F.3d 370, 377 (5th Cir. 2002). In the same vein, the Fifth Circuit has also held that
“hypothetical or theoretical testimony will not justify the issuance of a writ: Rather, the petitioner
must demonstrate that the ‘might have beens’ would have been important enough to affect the
proceedings’ reliability.” Martin v. McCotter, 796 F.2d 813, 819 (5th Cir. 1986) (internal citation
and quotations omitted).
Here, Judge Love correctly found that Maples failed to demonstrate that counsel was
ineffective. First, no burden was ever shifted onto Maples to hire his own expert; instead, because
he claimed counsel was ineffective, he was required to meet several elements. As Judge Love
found, Maples failed to (1) specifically identify or name the uncalled witnesses, (2) articulate that
the alleged witnesses were available and would have appeared to testify, or even (3) show that
their testimony would have been favorable. On objection, Maples still fails to meet these
elements—he simply presents “might have beens” and hypothetical testimony. The role of the
federal court on habeas review is not to grant a criminal defendant a “do-over” or act as a “super
state court.”
8

Case 6:17-cv-00560-RC-JDL Document 29 Filed 02/22/19 Page 9 of 12 PagelD #: 1617

Furthermore, given that the expert ballistics testimony he seeks is immaterial to whether
he shot the victim—as he claimed that he should not be held accountable for “excess shots”—
Maples cannot show that the outcome would have been different had counsel hired an expert. This
objection is wholly meritless and will be overruled.
4. Unreasonable Adjudication
Next, Maples asserts that Judge Love’s finding that he failed to demonstrate that the state
habeas court’s adjudication of these expert witness claims were unreasonable or contrary to federal
law “proves Maples’ pleadings have not received the fair attention they are deserving of for due
process.” He takes issue with the state habeas court’s decision, the presumption of correctness
under the AEDPA, and states that he has “demonstrated very concisely and with a very pointed
degree of accuracy in his 2254 that experts needed to be hired.”
This objection is a continuation of Maples’ disagreement with Judge Love’s finding that
he failed to show that counsel was ineffective for failing to hire an expert witness. Contrary to his
contention, however, he failed to meet Strickland’s prongs. Aside from failing to name the witness
and explain that the witness was available to testify, he wholly failed to demonstrate prejudice.
His main contention is that a ballistics or reconstruction expert would have requested that the
pillow be tested for blowback as well as “GSR, blood, bone matter, etc. to determine range and if
the pillow was used as a buffer in an [execution] style as the State has led the court, jury and the
public to believe.” Maples stated that further testing of the bullet trajectories would have
confirmed that the victim’s lover actually lunged at him rather than just lying in bed before the
first shot was fired.
Essentially, Maples insisted that a ballistics expert would have tested the pillow, the gun,
and various trajectories—which would have ultimately shown that the victim’s lover lunged at

9

Case 6:17-cv-00560-RC-JDL Document 29 Filed 02/22/19 Page 10 of 12 PagelD #: 1618
!
Maples before shots were fired and would have disproved the State’s assertion that five shots were
fired, when only four total shots fired.
However, as Judge Love explained, Maples failed to show that such ballistics testimony
would have changed the outcome of the proceedings. First, whether a hypothetical ballistics expert
would have testified in this matter is purely speculative. Second, whether the victim’s lover lunged
at Maples is irrelevant to whether he shot his wife multiple times—especially since he readily
admits that four shots were fired. While Maples argues that the police “placed the pillow,” this
i

statement is unsupported. Unsupported, conclusory allegations should be dismissed. See Ross v.
Estelle, 694 F.2d 1008, 1011-12 (5th Cir. 1983) (“We are thus bound to re-emphasize that mere
conclusory allegations do not raise a constitutional issue in a habeas proceeding.”). The bottom
line is that ballistics testimony—as Maples describes it—would not have changed the outcome of
the proceedings because, as Maples admitted in his habeas petition, “one shot is too many.” This
objection is also without merit.
5. Failure to Testify
In his final objection, Maples maintains that “there was no logical reason for him to not
testify, in fact the smartest thing he could have done on counsel’s advice was TO testify.” In his
habeas petition, he argued that counsel was ineffective for advising him not to testify “on a strategy
that the State would only provide first-degree murder and not capital murder,” thereby violating
his constitutional rights. Maples insisted that if he had explained to the jury that he had discovered
his wife in bed with another man, the court may have granted an instruction on “sudden passion.”
Judge Love found that the record demonstrated that Maples’ decision not to testify was his
personal choice, entered voluntarily and knowingly. Judge Love highlighted how Maples, under
oath, explained that it was his own decision not to testify. Furthermore, Judge Love explained that

10

Case 6:17-cv-00560-RC-JDL Document 29 Filed 02/22/19 Page 11 of 12 PagelD #: 1619

Defense counsel then explained to Maples how important the decision was and that once he makes
his decision, “we can’t ever go back,” to which Maples replied “yes, sir.” Immediately thereafter,
defense counsel asked Maples if he had enough time to think about his decision, to which he
responded in the affirmative and stated that his decision was not to testify. (Dkt. #17, pg. id. #100).
Additionally, Judge Love analyzed Maples’ claim of a “sudden passion defense” and found that
such a defense was inapplicable to the facts.
As the Fifth Circuit explained, a criminal defendant’s right to testify in his or her own
defense is a fundamental right:
The right to testify is a fundamental right that is personal to the defendant; therefore, only
the defendant can waive that right, voluntarily and knowingly. A defendant who argues
that his attorney prevented him from testifying must still satisfy the two prongs of
Strickland. This court has repeatedly held there is a strong presumption that counsel’s
decision not to place [a defendant] on the stand was sound trial strategy. Nonetheless,
counsel cannot override the ultimate decision of a defendant who wishes to testify contrary
to counsel’s advice.
Bower v. Quarterman, 497 F.3d 459, 473 (5th Cir. 2007) (internal citations and quotations
omitted). Here, on objection, Maples is second-guessing his own voluntary decision not to testify.
As Judge Love explained, firm declarations in open court and under oath carry a strong
presumption of verity and this Court will not entertain an attempt to hide behind those sworn
words. See United States v. Perez, 690 F. App’x 191,192 (5th Cir. 2017) (Mem.) (“A defendant’s
solemn declarations in open court carry a strong presumption of truth.”) (quoting Blackledge v.
Allison, 431 U.S. 63, 74 (1977)). Maples is relitigating his capital murder case and this Court’s
role on habeas review is only to review the state court’s adjudications.
V. Conclusion
The Court has conducted a careful de novo review of those portions of the Magistrate
Judge’s proposed findings and recommendations to which the Petitioner objected. See 28 U.S.C.

11

Case 6:17-cv-00560-RC-JDL Document 29 Filed 02/22/19 Page 12 of 12 PagelD #: 1620

§636(b)(l) (District Judge shall “make a de novo determination of those portions of the report or
specified proposed findings or recommendations to which objection is made.”). Upon such de
novo review, the Court has determined that the Report of the United States Magistrate Judge is
correct and the Plaintiffs objections are without merit. Accordingly, it is
ORDERED that the Petitioner’s objections are overruled and the Report of the Magistrate
Judge, (Dkt. #22), is ADOPTED as the opinion of the District Court. Furthermore, it is
ORDERED that the above-styled application for the writ of habeas corpus is DISMISSED
WITH PREJUDICE. It is also
ORDERED that the Petitioner Maples is DENIED a certificate of appealability sua
sponte. Finally, it is
ORDERED that any and all motions which may be pending in this action are hereby
DENIED.
So ORDERED and SIGNED February 22, 2019.

Ron Clark, Senior District Judge

12

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 1 of 15 PagelD #: 1556

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
LARRY M. MAPLES, #1965775

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:17cv560

REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
j Petitioner Larry Michael Maples, proceeding pro se and in forma pauperis, filed this
petition for writ of habeas corpus under 28 U.S.C. § 2254 challenging his Van Zandt County
conviction. The cause of action was referred for findings of fact, conclusions of law, and
recommendations for the disposition of the petition.
I. Background
A jury convicted Maples of capital murder and he was sentenced to life imprisonment
without the possibility of parole. Maples filed a direct appeal, and the Twelfth Court of Appeals
affirmed his conviction. See Maples v. State, 2016 WL 3475334 (Tex.App.—Tyler 2016, pet.
ref d) (unpublished). The Texas Court of Criminal Appeals refused his petition for discretionary
review on in November 2016. Maples then filed a state application for a writ of habeas corpus in
June 2017, which was denied by the Texas Court of Criminal Appeals on the findings of the trial
court. He then filed this timely federal petition in October 2017.
II. Factual Background
The appellate court summarized the facts as follows:
During the early morning hours of March 23, 2013, Appellant drove to [M.C.’s] residence,
which was located in a rural location outside Canton, Texas. He parked his vehicle threetenths of a mile away from the residence and walked the remainder of the way carrying a
Colt .45 semi-automatic handgun. He entered the residence and found his wife, Heather
Maples, in a bedroom with [M.C.]. Appellant immediately shot [M.C.] once in the
abdomen and shot Heather several times, with the fatal shot being fired after Appellant
placed a pillow over Heather’s head as she lay on the floor. Afterwards, while still at
1

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 2 of 15 PagelD #: 1557

[M.C.’s] house, Appellant made several calls from his cell phone. In the calls, he admitted
shooting both [M.C.] and Heather and stated that Heather was dead. Appellant waited at
the residence until police arrived and told the investigating officer what he had done.

To that end, the evidence shows that Appellant and Heather Maples were having marital
difficulties and she asked Appellant to move out of their home. Heather had a prior long­
term relationship with [M.C.], and Appellant suspected that she and [M.C.] had begun
having an affair. Earlier that day, family members observed that Appellant was withdrawn
and not interacting normally with them. In the early evening, an acquaintance of Appellant
who was an ordained minister believed Appellant was emotionally disturbed. Appellant
returned to his parents’ house and was last seen by his sister in his bedroom before she
went to sleep.
That night, without notifying anyone, Appellant left his parents’ home to look for Heather.
When he did not find her at their home, he drove to [M.C.’s] home with a handgun in his
possession. Appellant parked his vehicle three-tenths of a mile from [M.C.’s] residence
and walked the remainder of the way to the house. The entrance to [M.C.’s] property had
a mechanical gate, which could be opened only after entering the access code. But because
Appellant was not in a vehicle, he was able to enter [M.C.’s] property. Upon arriving at
[his] house, he entered the residence through an unlocked door. When he found Heather
and [M.C.] in a bedroom, he shot [M.C.] once in the abdomen while he was in bed and
ultimately shot Heather at least four times.
Appellant called 911 from [M.C.’s] residence and told the 911 dispatcher that he had gone
to the home of his wife’s boyfriend, shot him in the belly, shot his wife “a bunch of times,”
and his wife was not breathing. A recording of the 911 call was played to the jury. In the
background of the 911 tape, [M.C.’s] voice can be heard giving Appellant the physical
address of the residence to give to law enforcement, as well as the code to enter the
mechanical gate upon arriving.

Appellant was charged by indictment with capital murder. More particularly, the State
alleged in the indictment that Appellant intentionally caused the death of Heather Maples
while in the course of committing the offense of burglary of a habitation. Initially, the State
filed a notice of intent to seek the death penalty, but withdrew the notice before the case
went to trial. Appellant pleaded “not guilty,” and the jury found him “guilty” as charged.
The trial court sentenced Appellant to the mandatory punishment for life without the
possibility of parole. This appeal followed.
See Maples, 2016 WL 3475334 *1-3.

2

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 3 of 15 PagelD #: 1558
t

III. Maples’ Federal Habeas Petition
Maples argues that his constitutional rights were violated through his counsel’s
ineffectiveness.

Specifically, he maintains that counsel was ineffective by (1) failing to

hire/consult with a ballistics or reconstruction expert; (2) failing to hire a medical expert to
challenge the State’s autopsy findings; (3) advising him not to testify; and (4) failing to build a
defense surrounding a “sudden passion.”
Upon order of the Court, Respondent filed a response to Maples’ petition. Respondent
insists: that counsel was not ineffective and that Maples’ claim concerning a potential “sudden
passion” defense is unexhausted. Maples filed a reply to the response.
IV. Standard of Review
1 1. Federal Habeas Review
The role of federal courts in reviewing habeas corpus petitions filed by state prisoners is
exceedingly narrow. A prisoner seeking federal habeas corpus review must assert a violation of a
federal constitutional right; federal relief is unavailable to correct errors of state constitutional,
statutory, or procedural law unless a federal issue is also present. See Lowery v. Collins, 988 F.2d
1364, 1367 (5th Cir. 1993); see also Estelle v. McGuire, 503 F.3d 408, 413 (5th Cir. 2007) (“We
first note that ‘federal habeas corpus relief does not lie for errors of state law.’”) (internal citation
omitted). When reviewing state proceedings, a federal court will not act as a “super state supreme
court” to review error under state law. Wood v. Quarterman, 503 F.3d 408, 414 (5th Cir. 2007).
Furthermore, federal habeas review of state court proceedings is governed by the
Antiterrorism and Effective Death Penalty Act (AEDPA) of 1996. Under the AEDPA, which
imposed a number of habeas corpus reforms, a petitioner who is in custody “pursuant to the
judgment of State court” is not entitled to federal habeas corpus relief with respect to any claim
that was adjudicated on the merits in State court proceedings unless the adjudication of the claim—
3

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 4 of 15 PagelD #: 1559

1. resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established law, as determined by the Supreme Court of the
United States; or
2. resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceedings.
28 U.S.C. § 2254(d). The AEDPA imposes a “highly deferential standard for evaluating state
court rulings,” which demands that federal courts give state court decisions “the benefit of the
doubt.” See Renico v. Lett, 559 U.S. 766, 773 (2010) (internal citations omitted); see also
Cardenas v. Stephens, 820 F.3d 197, 201-02 (5th Cir. 2016) (“Federal habeas review under the
AEDPA is therefore highly deferential: The question is not whether we, in our independent
judgment, believe that the state court reached the wrong result. Rather, we ask only whether the
state court’s judgment was so obviously incorrect as to be an objectively unreasonable resolution
of the claim.”). Given the high deferential standard, a state court’s findings of fact are entitled to
a presumption of correctness and a petitioner can only overcome that burden through clear and
convincing evidence. Reed v. Quarterman, 504 F.3d 465, 490 (5th Cir. 2007).
2. Ineffective Assistance of Counsel
To show that trial counsel was ineffective, Hudson must demonstrate both deficient
performance and ensuing prejudice. See Strickland v. Washington, 466 U.S. 668 (1984). In
evaluating whether an attorney’s conduct was deficient, the question becomes whether the
attorney’s conduct fell below an objective standard of reasonableness based on “prevailing norms
of practice.” See Loden v. McCarty, 778 F.3d 484, 494 (5th Cir. 2016).
Moreover, to establish prejudice, the petitioner must show that there is a reasonable
probability that—absent counsel’s deficient performance^—the outcome or result of the
proceedings would have been different. Id.; see also Reed v. Stephens, 739 F.3d 753, 773 (5th Cir.
2014) (quoting Strickland, 466 U.S. at 687)). It is well-settled that a “reasonable probability” is
one that is sufficient to undermine confidence in the outcome of the proceedings. Strickland, 466
4

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 5 of 15 PagelD #: 1560
i

U.S. at 694. Importantly, the petitioner alleging ineffective assistance must show both deficient
performance and prejudice. See Charles v. Stephens, 736 F.3d 380, 388 (5th Cir. 2013) (“A failure
to establish either element is fatal to a petitioner’s claim.”) (internal citation omitted). Given the
already highly deferential standard under the AEDPA, establishing a state court’s application
whether counsel was ineffective “is all the more difficult.” Harrington v. Richter, 562 U.S. 86,
105 (2011); see also Charles v. Stephens, 736 F.3d 380, 389 (5th Cir. 2013) (“Both the Strickland
standard and the AEDPA standard are highly deferential, and when the two apply in tandem,
review is doubly so.”) (internal quotations and citation omitted).
V. Discussion and Analysis
i

1. Ballistcs/Reconstruction and Medical Experts
In his first two claims, Maples argues that counsel was ineffective for failing to hire and

call experts. First, he contends that counsel was ineffective for failing to hire or consult a
ballistics/reconstruction expert, as “counsel blindly accepted the State’s case without his own
professionally objective investigation into the facts and circumstances.”

A ballistics or

reconstruction expert would have requested that the pillow be tested for blowback as well as “GSR,
blood, bone matter, etc. to determine range and if the pillow was used as a buffer in an [execution]
style as the State has led the court, jury and the public to believe.” Maples states that further testing
of the bullet trajectories would have confirmed that [M.C.] actually lunged at him rather than just
lying in bed before the first shot was fired.
Second, Maples insists that counsel was ineffective for failing to hire a medical expert to
challenge the autopsy results. He argues that medical expert testimony would confirm that the
victim was not shot “twice with the same bullet.” Maples states that “one shot is too many,” but
“he should not be held accountable [for] excess shots he never fired.” He again insists that [M.C.]
lunged at him when [M.C.] was shot.
5

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 6 of 15 PagelD #: 1561

Trial counsel has a duty to make a reasonable investigation of a criminal defendant’s case
or to make a reasonable decision that an investigation is not necessary. See Ransom v. Johnson,
126 F.3d 716, 722 (5th Cir. 1997); Green v. Cockrell, 67 Fed.App’x 248, 2003 WL 2114722 *3
(5th Cir. 2003) (unpublished). A habeas petitioner alleging that an investigation was inadequate
or nonexistent must allege—with specificity—what the purported investigation would have
revealed and how it would have affected the outcome of the trial. See Druery v. Thaler, 647 F.3d
535, 541 (5th Cir. 2011) (quoting Nelson v. Hargett, 989 F.2d 847, 850 (5th Cir. 1993)).
Moreover, in order to prevail on a claim of ineffective assistance for counsel’s failure to
call a witness, the petitioner must name the witness, demonstrate that the witness was available to
testify and would have done so, explain the content of the witness’s proposed testimony, and show
that the proposed testimony would have been favorable to him. Day v. Quarterman, 566 F.3d 527,
538 (5th Cir. 2009). The Fifth Circuit has repeatedly noted that:
Complaints of uncalled witnesses are not favored in federal habeas corpus review because
allegations of what a witness would have testified are largely speculative. Where only the
evidence of a missing witnesses’ testimony is from the defendant, this Court views claims
of ineffective assistance with great caution.
Sayre v. Anderson, 238 F.3d 631, 635-36 (5th Cir. 2001) (quoting Lockhart v. McCotter, 782 F.2d
1275, 1282 (5th Cir. 1986)); U.S. v. Fields, 761 F.3d 443, 461 (5th Cir. 2014); Evans v. Cockrell,
285 F.3d 370, 377 (5th Cir. 2002).

In the same vein, the Fifth Circuit has also held that

“hypothetical or theoretical testimony will not justify the issuance of a writ: Rather, the petitioner
must demonstrate that the ‘might have beens’ would have been important enough to affect the
proceedings’ reliability.” Martin v. McCotter, 796 F.2d 813, 819 (5th Cir. 1986) (internal citation
and quotations omitted).
Here, as the Respondent argues, Maples fails to demonstrate that counsel was ineffective
for failing to investigate or call any ballistics/reconstruction expert or medical expert. He failed
to (1) specifically identify or name the uncalled witnesses, (2) articulate that the alleged witnesses
6

;

V-'
■

2

i

r'■
i

\

s'.

A.

r.

:v.

\

i"

£

-:

*
>

/

.*

*.
i..

.*•

<

■v

•<
•r.

-•

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 7 of 15 PagelD #: 1562

were available and would have appeared to testify, or even (3) show that their testimony would
have been favorable. Maples’ reliance on uncalled witnesses is purely conclusory, hypothetical,
and speculative—which does not demonstrate a constitutional violation. While Maples insists that
counsel relied solely on the State’s evidence and/or witnesses, he fails to provide this Court with
any specifics about a particular witness. Unsupported, conclusory allegations should be dismissed.
See Ross v. Estelle, 694 F.2d 1008, 1011-12 (5th Cir. 1983) (“We are thus bound to re-emphasize
that mere conclusory allegations do not raise a constitutional issue in a habeas proceeding.”).
! Turning to Maples’ claim regarding counsel’s failure to investigate ballistics, the Court
notes that his claim again fails. Essentially, Maples insists that a ballistics expert would have tested
the pillow, the gun, and various trajectories—which would have ultimately shown that [M.C.]
lunged at Maples before shots were fired and would have disproved the State’s assertion that five
shots were fired, when only four total shots fired.
In order to illustrate that counsel was ineffective for failing to investigate, the petitioner
must allege, with specificity, what the investigation would reveal and how it would have changed
the outcome of the trial. See Miller v. Dretke, 420 F.3d 356, 361 (5th Cir. 2005). Here, while
Maples describes what a purported investigation would have allegedly shown, any investigation
into the amounts of shots fired and whether M.C. lunged at Maples prior to the shooting would not
have changed the outcome of the trial.
As the State highlights, there is no dispute that Maples killed the victim after shooting her
multiple times. Maples was not on trial for the shots fired at M.C.; in other words, whether M.C.
lunged at Maples before he was shot is irrelevant to determine whether he shot his wife multiple
times—especially because there was nothing in the record to suggest that M.C. lunged at Maples
before he began firing shots and that Maples specifically admitted to shooting and killing his wife.

7

r

;
r7

;

ti

*■

c

V
/If

J

r-

<T

*

r~.
;-

*%

*r.

r-^
r"-

:
i

c

• •••
A-

v

c

?

..r

V

•i
s

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 8 of 15 PagelD #: 1563

Importantly, Maples raised this claim in his state habeas application. The Texas Court
of Criminal Appeals denied relief. Accordingly, because the state habeas court rejected this claim,
this Court must give deference to that adjudication. See Harrington v. Richter, 562 U.S. 86, 98
(2011) (“By its terms, §2254(d) bars relitigation of any claim ‘adjudicated on the merits’ in state
court, subject to only the exceptions in §§ 2254(d)(1) and (2).”) (internal citation omitted); see
also Trottie v. Stephens, 720 F.3d 231, 240 (5th Cir. 2013) (“We evaluate the debatability of
Trottie’s constitutional claims under AEDPA’s highly deferential standard, which ‘demands that
state-court decisions be given the benefit of the doubt.’) (internal citation omitted). Maples failed
to demonstrate that this adjudication was unreasonable or contrary to federal law.
2. Failure to Testify
Next, Maples maintains that counsel was ineffective for advising him not to testify “on a
strategy that the State would only provide first-degree murder and not capital murder,” thereby
violating his constitutional rights. He insists that if he had explained to the jury that he had
discovered his wife in bed with another man, the court may have granted an instruction on “sudden
passion.”
As the Fifth Circuit explained, a criminal defendant’s right to testify in his or her own
defense is a fundamental right:
The right to testify is a fundamental right that is personal to the defendant; therefore, only
the defendant can waive that right, voluntarily and knowingly. A defendant who argues
that his attorney prevented him from testifying must still satisfy the two prongs of
Strickland. This court has repeatedly held there is a strong presumption that counsel’s
decision not to place [a defendant] on the stand was sound trial strategy. Nonetheless,
counsel cannot override the ultimate decision of a defendant who wishes to testify contrary
to counsel’s advice.
Bower v. Quarterman, 497 F.3d 459, 473 (5th Cir. 2007) (internal citations and quotations
omitted).

8

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 9 of 15 Page ID #: 1564

Here, the record shows that Maples’ decision not to testify was his personal choice, entered
voluntarily and knowingly. The record reveals that Maples specifically stated, under oath, that it
was his own decision not to testify. See Dkt. #17, pg. id. #100. Defense counsel then explained
how important the decision was and that once he makes his decision, “we can’t ever go back,” to
which Maples replied “yes, sir.” Id. Immediately thereafter, defense counsel asked Maples if he
had enough time to think about his decision, to which he responded in the affirmative and stated
i

.!

that hiis decision was not to testify. Id. The record therefore shows that Maples understood his
right to testify, and waived that right both voluntarily and knowingly. His claim to the contrary is
i

an attempt to now hide behind his own sworn words, as firm declarations in open court and under
i

oath carry a strong presumption of verity. See United States v. Perez, 690 Fed.App’x 191, 192
(5th Cir. 2017) (Mem.) (“A defendant’s solemn declarations in open court carry a strong
presumption of truth.”) (quoting Blackledge v. Allison, 431 U.S. 63, 74 (1977)).
Even if Maples testified in his own defense based on a “sudden passion” theory, the
outcome of the proceedings would not have been different. For reasons explained below, a defense
theory based on “sudden passion” would have been meritless.
3. Sudden Passion
In his final claim, Maples argues that counsel and appellate counsel were ineffective for
failing to present a defense based on “sudden passion.” Specifically, Maples contends that the
main issue at trial should have been his lack of intent to murder the victim. He states that “[n]o
amount of preparation can allow a man to find his new wife in bed with her ex-lover in a state of
undress as Maples did, and he just be able to turn around and walk out. It is rare that the passion
and shock doesn’t affect the Husband.”
As the State correctly argues, this specific claim is unexhausted. Under the AEDPA,
federal courts may not grant habeas relief unless the petitioner has exhausted available remedies
9

l

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 10 of 15 PagelD #: 1565

in state courts. See 28 U.S.C. §2254(d)(2). To satisfy the exhaustion requirement, the petitioner
must “fairly present” his legal claim to the highest state court prior to filing in federal court, which,
here, is the Texas Court of Criminal Appeals. See Nickleson v. Stephens, 803 F.3d 748, 753 (5th
Cir. 2015); see also Wilder v. Cockrell, 274 F.3d 255, 259 (5th Cir. 2001) (“Exhaustion requires a
state prisoner to present the state courts with the same claim he urges upon the federal courts.”)
(internal quotations and citation omitted). Furthermore, the exhaustion requirement is not satisfied
when the petitioner raises a “somewhat similar” state-law claim in federal court. See Wilder, 274
F.3d at 259 (“It is not enough that all the facts necessary to support the federal claim were before
the state courts or that a somewhat similar state-law claim was made.”) (quoting Anderson v.
Harless, 459 U.S. 4, 6 (1982)).
Here, a review of the state records illustrate that Maples never presented his claim that
counsel was ineffective for failing to raise a defense based on sudden heat of passion to the state
courts. A review of his direct appeal, petition for discretionary review, and his state habeas
application do not show that he presented this claim. Accordingly, this claim is unexhausted and
the Court could dismiss the claim for that reason alone.
However, in the interest of justice and because Maples repeatedly insists that his rights
were violated because defense counsel failed to focus on his lack of intent and the fact that he saw
his wife in bed with an ex-boyfriend, the Court will address the claim.
A murder defense based on “sudden passion” would have been meritless. Under Texas
law, a person commits first-degree murder if he or she:
(1) intentionally or knowingly causes the death of an individual;
(2) intends to cause serious bodily injury and commits an act clearly dangerous to human
life that causes the death of an individual; or
(3) commits or attempts to commit a felony, other than manslaughter, and in the course of
and in furtherance of the commission or attempt, or in immediate fight from the
10

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 11 of 15 PagelD #: 1566

commission or attempt, he commits or attempts to commit an act clearly dangerous to
human life that causes the death of an individual.
See Tex. Penal Code Ann. § 19.02(b) (2013). At the punishment stage of a trial, a defendant may
raise the issue of “sudden passion,” at which point the defendant must prove the issue in the
affirmative by a preponderance of the evidence; if successful, the offense becomes a second-degree
felony and subjects a defendant to a maximum sentence of twenty years’ imprisonment. See Tex.
Penal Code Ann. § 19.02(d) (2013). Under the statute, “sudden passion” means “passion directly
caused by and arising out of provocation by the individual killed or another acting with the person
killed which passion arises at the time of the offense and is not solely the result of former
provocation.” See Tex. Penal Code Ann. § 19.02(a)(2) (2013) (emphasis supplied). Adequate
cause for such passion is “a cause that would commonly produce anger, rage, resentment, or terror
in a person of ordinary temper, sufficient to render the mind incapable of cool reflection.” See
Wooten v. State, 400 S.W.3d 601, 605 (Tex.Crim.App. 2013).
In order to receive a jury instruction on the issue of sudden passion at the punishment phase,
the record must minimally support an inference that: (1) the defendant in fact acted under the
immediate influence of a passion such as terror, anger, rage, or resentment; (2) his sudden passion
was induced by some provocation by the deceased or another acting with him, which provocation
would commonly produce such a passion in a person of ordinary temper; (3) he committed the
murder before regaining his capacity for cool reflection; and (4) a causal connection existed
“between the provocation, passion, and homicide.” See id.; see also McKinney v. State, 179
S.W.3d 565, 569 (Tex.Crim.App. 2005). The homicide must occur while the passion still exists
and “before there is a reasonable opportunity for the passion to cool.” See Swearington v. State,
270 S.W.3d 804, 820 (Tex.App.—Austin 2008, pet. ref d).
Here, the facts of this case do not support a sudden passion theory. As mentioned, the facts
show that Maples and the victim were having marital difficulties, and he suspected her of having
11

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 12 of 15 PagelD #: 1567

an affair with M.C.—her previous boyfriend. Earlier on the day of the murder, family members
and acquaintances observed that Maples was withdrawn, not acting normally, and seemingly
emotionally disturbed. Despite his state, Maples drove to M.C.’s house, where the victim was
located; he parked his car within walking distance to the house before walking to the house while
carrying a semi-automatic handgun. After entering the home without consent, Maples entered a
bedroom and found M.C. and the victim. He immediately shot M.C. and then shot the victim
multiple times. The record illustrates that Maples shot the victim at least four times as she lay
bleeding—with the fatal blow being as Maples shot her through a pillow placed over her head.
After the final shot, Maples made several phone calls—as M.C. remained suffering from a gun
shot to his abdomen—admitting to the murder. He even waited until law enforcement arrived and
told them what he did.
The facts do not show that Maples acted under the immediate influence of a passion. To
the contrary, prior to entering the house Maples believed that the victim was having an affair with
M.C., prompting his decision to look for the victim and arrive at M.C.’s house. He cannot then
argue that he only became upset or angered when he first witnessed M.C. and his wife the bedroom.
Moreover, as previously mentioned, there is no evidence in the record whatsoever to show
that Maples was provoked by either M.C. or the victim. Maples repeatedly shot the victim—at
least four times, one shot at point-blank range over a pillow into her head—which necessarily
belies any argument that he acted under immediate sudden passion when he committed the murder.
See, e.g.,Ruth v. Thaler, 2013 WL 4515900 *17 (S.D.Tex.—Houston Aug. 23,2013) (“Moreover,
the evidence in the record indicates that Ruth’s conduct, in which he shot the victim fifteen times,
would preclude a finding by a rational jury that he acted under sudden passion when he committed
the homicide.”); Reese v. State, 340 S.W.3d 838, 842 (Tex.App.—San Antonio 2011, no pet.)
(explaining that “shooting [the victim] several more times because appellant did not want Sanford
12

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 13 of 15 PagelD #: 1568

to suffer by living with the fact that the man she loved had shot her” is not an objectively common
response in an ordinary, reasonable person.); Swearington, 270 S.W.3d at 820 (“There was little,
if any, evidence that Swearington could have been acting under the immediate influence of sudden
passion when, after strangling [the victim], he “threw her” into the half-full bathtub, left her there,
and later placed her in a car trunk with a trash bag over her head—all means through which the
jury could have found Swearington intentionally or knowingly caused [the victim’s] death.”).
I

! Accordingly, given the facts of the case, any “sudden passion” defense at any stage would
l

have been meritless. Because counsel cannot be ineffective for failing to raise a meritless issue,
this claim should be dismissed. See Wood v. Quarterman, 503 F.3d 408, 413 (5th Cir. 2007)
(explaining that counsel cannot be constitutionally ineffective for failing to raise a meritless
argument). This claim should therefore be dismissed.
VI. Conclusion
Maples has failed to show that the state habeas court’s adjudication of his claims resulted
in a decision that was contrary to or involved an unreasonable application of clearly established
federal law, as determined by the United States Supreme Court, or resulted in a decision based on
an unreasonable determination of the facts in light of the evidence presented in the state court
proceeding. His application for federal habeas corpus relief is thus without merit.
VII. Certificate of Appealability
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal district
court does not enjoy an absolute right to appeal.” Buck v. Davis, 137 S. Ct. 759, 773 (2017).
Instead, under 28 U.S.C. § 2253(c)(1), he must first obtain a certificate of appealability (“COA”)
from a circuit justice or judge. Id. Although Petitioner has not yet filed a notice of appeal, the
court may address whether he would be entitled to a certificate of appealability. See Alexander v.
Johnson, 211 F.3d 895, 898 (5th Cir. 2000) (A district court may sua sponte rule on a certificate
13

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 14 of 15 PagelD #: 1569

of appealability because “the district court that denies a petitioner relief is in the best position to
determine whether the petitioner has made a substantial showing of a denial of a constitutional
right on the issues before the court. Further briefing and argument on the very issues the court has
just ruled on would be repetitious.”).
A certificate of appealability may issue only if a petitioner has made a substantial showing
of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To make a substantial showing, the
petitioner need only show that “jurists of reason could disagree with the district court’s resolution
of his .constitutional claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). The
Supreme Court recently emphasized that the COA inquiry “is not coextensive with merits analysis”
and “should be decided without ‘full consideration of the factual or legal bases adduced in support
of the claims.’” Buck, 137 S. Ct. 773 (quoting Miller-El, 537 U.S. at 336). Moreover, “[wjhen the
district court denied relief on procedural grounds, the petitioner seeking a COA must further show
that ‘jurists of reason would find it debatable whether the district court was correct in its procedural
ruling.’” Rhoades v. Davis, 852 F.3d 422, 427 (5th Cir. 2017) (quoting Gonzalez v. Thaler, 565
U.S. 134, 140-41 (2012)).

Here, Maples failed to present a substantial showing of a denial of a constitutional right or
that the issues he has presented are debatable among jurists of reason. He also failed to demonstrate
that a court could resolve the issues in a different manner or that questions exist warranting further
proceedings. Accordingly, he is not entitled to a certificate of appealability.
RECOMMENDATION
For the foregoing reasons, it is recommended that the above-styled application for the writ
of habeas corpus be dismissed with prejudice. It is further recommended that Petitioner Maples
be denied a certificate of appeal sua sponte.
14

Case 6:17-cv-00560-RC-JDL Document 22 Filed 06/08/18 Page 15 of 15 PagelD #: 1570

Within fourteen (14) days after receipt of the magistrate judge's Report, any party may
serve and file written objections to the findings and recommendations contained in the Report.
A party's failure to file written objections to the findings, conclusions and
recommendations contained in this Report within fourteen days after being served with a copy
shall bar that party from de novo review by the district judge of those findings, conclusions and
recommendations and, except on grounds of plain error, from appellate review of unobjected-to
factual findings and legal conclusions accepted and adopted by the district court. Douglass v.
UnitedServs. Auto Ass’n., 79 F.3d 1415, 1430 (5th Cir. 1996) (en banc).

So ORDERED and SIGNED this 8th day of June, 2018.

UNITED STATES MAGISTRATE JUDGE

15
i

COURT OF APPEALS
TWELFTH COURT OF APPEALS DISTRICT OF TEXAS
JUDGMENT
JUNE 24,2016

pe,c£><“
NO. 12-14-00337-CR

LARRY MICHAEL MAPLES,
Appellant
V.
THE STATE OF TEXAS,
Appellee
Appeal from the 294th District Court
of Van Zandt County, Texas (Tr.Ct.No. CR13-00334)
THIS CAUSE came to be heard on the appellate record and briefs filed
-■^herein, and the same being considered, it is the opinion of this court that there was no error in the
judgment.
It is therefore ORDERED, ADJUDGED and DECREED that the judgment
of the court below be in all things affirmed, and that this decision be certified to the court
below for observance.
Greg Neeley, Justice.
Panel consisted ofWorthen, C.J.. Hoyle, J., and Neeley, J

,)C p

>

NO. 12-14-00337-CR
IN THE COURT OF APPEALS
TWELFTH COURT OF APPEALS DISTRICT
TYLER, TEXAS
LARRY MICHAEL MAPLES,
APPELLANT

§

APPEAL FROM THE 294TH

V.

§

JUDICIAL DISTRICT COURT

THE STA TE OF TEXAS,
APPELLEE

§

VANZANDT COUNTY, TEXAS

MEMORANDUM OPINION
Larry Michael Maples appeals his conviction for capital murder, for which he was
sentenced to life imprisonment without the possibility of parole.

In two issues, Appellant

contends the evidence is insufficient to support the jury’s verdict. In a third issue, Appellant
argues that the State violated his due process rights by knowingly presenting perjured testimony.
We affirm.

Background
During the early morning hours of March 23, 2013, Appellant drove to Moises
Clemente’s residence, which was located in a rural location outside Canton, Texas. He parked
his vehicle three-tenths of a mile away from the residence and walked the remainder of the way
carrying a Colt .45 semi-automatic handgun. He entered the residence and,found his wife,
Heather Maples, in a bedroom with Clemente. Appellant immediately shot Clemente once in the
abdomen and shot Heather several times, with the fatal shot being fired after Appellant placed a
pillow over Heather’s head as she lay on the floor. Afterwards, while still at Clemente’s home,
Appellant made several calls from his cell phone.

In the calls, he admitted shooting both

Clemente and Heather and stated that Heather was dead. Appellant waited at the residence until
police arrived and told the investigating officer what he had done.

F

9-

Appellant was charged by indictment with capital murder. More particularly, the State
alleged in the indictment that Appellant intentionally caused the death of Heather Maples while
in the course of committing the offense of burglary of a habitation. Initially, the State filed a
notice of intent to seek the death penalty, but withdrew the notice before the case went to trial.
Appellant pleaded “not guilty,” and the jury found him “guilty” as charged in the indictment.
The trial court sentenced Appellant to the mandatory punishment of imprisonment for life
without the possibility of parole.1 This appeal followed.

Sufficiency of the Evidence
In his first issue, Appellant asserts the evidence is insufficient to support his conviction
for the offense of capital murder. In his second issue, Appellant asserts the trial court erred in
denying his motion for directed verdict. A challenge to a trial court’s ruling on a motion for
directed verdict is a challenge to the sufficiency of the evidence to support a conviction, and they
are reviewed under the same standards. Williams v. State, 937 S.W.2d 479, 482 (Tex. Crim.
App. 1996). Accordingly, we will address Appellant’s first and second issues together.
Standard of Review
When sufficiency of the evidence is challenged on appeal, we view all of the evidence in
the light most favorable to the verdict to decide whether any rational trier of fact could have
found the essential elements of the offense beyond a reasonable doubt. See Jackson v. Virginia,
443 U.S. 307, 319, 99 S. Ct. 2781, 2789, 61 L. Ed. 2d 560 (1970); Brooks v. State, 323 S.W.3d
893, 895 (Tex. Crim. App. 2010).

Under this standard, the jury is the sole judge of the

witnesses’ credibility and the weight of their testimony. Jackson, 443 U.S. at 319, 99 S. Ct. at
2789; Brooks, 323 S.W.3d at 899.

We defer to the trier of fact’s responsibility to resolve

conflicts in testimony, weigh evidence, and draw reasonable inferences from the basic facts to
ultimate facts. Hooper v. State, 214 S.W.3d 9, 13 (Tex. Crim. App. 2007). Each fact need not
point directly and independently to the guilt of the appellant, as long as the cumulative force of
all the incriminating circumstances is sufficient to support the conviction. Id. A trial judge who
is not the finder of fact on the issue of guilt can direct a verdict in the defendant’s favor only if,
after viewing the evidence in the light most favorable to the prosecution, she cannot conclude

1 Nee TEX. PENAL CODE Ann. § 12.31(a)(2) (West Supp. 2015) (capital murder punishable by imprisonment
for life without parole or by death).

2

3
that any rational trier of fact could have found the essential elements of the crime beyond a
reasonable doubt. York v. State, 342 S.W.3d 528, 544 (Tex. Crim. App. 2011).
In determining whether the state has met its burden of proving the defendant guilty
beyond a reasonable doubt, we compare the elements of the crime as defined by a hypothetically
correct jury charge to the evidence adduced at trial. Thomas v. State, 444 S.W.3d 4, 8 (Tex.
Crim. App. 2014). A hypothetically correct jury charge is one that accurately sets out the law, is
authorized by the indictment, does not unnecessarily increase the state’s burden or restrict its
theories of liability, and adequately describes the particular offense for which the defendant was
tried. Malik v. State, 953 S.W.2d 234, 240 (Tex. Crim. App. 1997).
Applicable Law
In relevant part, a person commits murder if he intentionally causes the death of an
individual. See Tex. Penal Code Ann. § 19.02(b)(1) (West 2011).

The offense of capital

murder, based on the allegations in the indictment in this case, requires proof that the person
intentionally committed the murder while in the course of committing or attempting to commit
burglary. See Tex. PENAL CODE Ann. § 19.03(a)(2) (West Supp. 2015).
A person commits the offense of burglary if, without the effective consent of the owner,
he enters a habitation and commits or attempts to commit a felony, theft, or an assault. Tex.
Penal Code Ann. § 30.02(a)(3) (West 2011). Under Section 30.02(a)(3), the State was not
required to prove that Appellant entered Clemente’s residence with the specific intent to commit
burglary at the moment of entry. Rivera v. State, 808 S.W.2d 80, 92 (Tex. Crim. App. 1991).
Rather, in a capital murder prosecution, the murder of the victim satisfies not only the murder
requirement for capital murder, but also the underlying felony requirement to support burglary.
See Gardner v. State, 306 S.W.3d 274, 287 (Tex. Crim. App. 2009) (“In a prosecution for capital
murder based on burglary, the requirement that a felony be intended is satisfied by the murder of
the victim.”); Homan v. State, 19 S.W.3d 847, 848 (Tex. Crim. App. 2000) (reversing court of
appeals’ holding that murder of complainant could not be used to turn entry into home a
burglary); Matamoros v. State, 901 S.W.2d 470, 474 (Tex. Crim. App. 1995) (holding evidence
was sufficient to prove burglary component of capital murder where defendant entered
complainant's home without his consent and killed complainant).
Forced entry is not an element of burglary; rather, burglary requires the entry to be made
without the effective consent of the owner. See Tex. Penal Code Ann. § 30.02; Ellett v. State,

3

607 S.W.2d 545, 549 (Tex. Crim. App. [Panel Op.] 1980); see also Evans v. State, 677 S.W.2d
814, 818 (Tex. App.

Fort Worth 1984, no pet.) (“A person can make an unlawful entry by

walking through an open door when the entry is without the owner’s consent.”). Moreover, lack
of consent to entry in burglary prosecutions may be shown by circumstantial evidence, Hathorn
v. State, 848 S.W.2d 101, 107 (Tex. Crim. App. 1992).
Discussion
As charged in the indictment, the State was required to show that Appellant intentionally
caused the death of Heather Maples by shooting her with a firearm while in the course of
committing the offense of burglary of a habitation of the owner, Moises Clemente. See Tex.
PENAL CODE Ann. § 19.03(a)(2).

Appellant does not contest that he entered Clemente’s

habitation or that, after doing so, he shot and killed Heather Maples. Accordingly, he concedes
the evidence supports a conviction for murder. Appellant contends, however, that the evidence
is insufficient to prove he killed his wife during the course of a burglary. Since the murder of the
victim supplies the requirement that a felony be committed to support burglary, the only question
for our determination is whether the evidence is sufficient to prove that Appellant did not have
Clemente’s consent to enter his residence. See Gardner v. State, 306 S.W.3d at 287; Homan, 19
S.W.3d at 848; Matamoros, 901 S.W.2d at 474. Therefore, we limit our analysis to that element.
See Tex. R. App. P. 47.1.
The focus of Appellant’s insufficiency argument is an attack on the credibility of Moises
Clemente. He points out that Clemente testified he and Heather Maples had not engaged in
intimate contact on the night in question when forensic evidence showed otherwise. Appellant
states that this establishes Clemente committed perjury. Appellant appears to argue that because
Clemente was untruthful about whether he and Heather had engaged in sexual activity before
Appellant’s arrival, the jury’s reliance on his testimony as a whole was unreasonable or
irrational. Thus, he insists that his conviction should not be upheld. We disagree.
As stated above, our analysis is limited to the sufficiency of the evidence that Appellant
entered Clemente’s residence without his consent on the night in question. To that end, the
evidence shows that Appellant and Heather Maples were having marital difficulties and she
asked Appellant to move out of their home. Heather had a prior long-term relationship with
Clemente, and Appellant suspected that she and Clemente had begun having an affair. Earlier
that day, family members observed that Appellant was withdrawn and not interacting normally

4

S'

with them. In the early evening, an acquaintance of Appellant who was an ordained minister
believed that Appellant was emotionally disturbed. Appellant returned to his parents’ home and
was last seen by his sister in his bedroom before she went to sleep.
That night, without notifying anyone, Appellant left his parents’ home to look for
Heather. When he did not find her at their home, he drove to Clemente’s home with a handgun
in his possession. Appellant parked his vehicle three-tenths of a mile from Clemente’s residence
and walked the remainder of the way to the house. The entrance to Clemente’s property had a
mechanical gate, which could be opened only after entering the access code.

But because

Appellant was not in a vehicle, he was able to enter Clemente’s property.2 Upon arriving at
Clemente’s house, he entered the residence through an unlocked door. When he found Heather
and Clemente in a bedroom, he shot Clemente once in the abdomen while he was in the bed and
ultimately shot Heather at least four times.
Appellant called 911 from Clemente’s residence and told the 911 dispatcher that he had
gone to the home of his wife’s boyfriend, shot him in the belly, shot his wife a “bunch of times,”
and his wife was not breathing. A recording of the 911 call was played to the jury. In the
background of the 911 tape, Clemente’s voice can be heard giving Appellant the physical
address of the residence to give to law enforcement, as well as the code to enter the mechanical
gate upon arriving.
The evidence reflects that Appellant was upset that Heather wanted a divorce and asked
that he move out of their house. Appellant’s demeanor earlier in the day shows that he was
consumed with the thought that Heather had resumed a relationship with Clemente, and
witnesses observed that he seemed emotionally disturbed early in the evening. The jury could
reasonably conclude that Appellant left his family’s home in the middle of the night with a large
caliber handgun in his possession to look for Heather with a plan to find and confront her.
Although Appellant’s father specifically told him not to go to Clemente’s home,
Appellant did so under the cover of darkness and parked his vehicle far enough away so that his
arrival would not be detected.

After parking, Appellant walked across Clemente’s property

2 Appellant did not testify, and there is no direct testimony about how Appellant entered the property. But
Clemente testified that the property was a 125 acre ranch that was fenced and gated. He believed that the driveway
from the gate to his home was approximately 1,500 feet. During the 911 call, the dispatcher informed Appellant that
law enforcement officers were at the gate and needed the code to enter the property. Appellant did not know the
code, but Clemente can be heard providing it. Based on these facts, it was reasonable to infer that the gate was
closed when Appellant approached the property, and that he entered it by traversing the gate or the fence.

5

£
towards his home, presumably expecting to find Heather there. Upon arrival, Appellant would
have been able to see Heather’s vehicle parked at Clemente’s residence and surmise that she was
inside with Clemente. Because Clemente and Heather were shot in a bedroom, it was logical for
the jury to assume Appellant entered the residence undetected through an unlocked door without
knocking or otherwise putting the occupants on notice of his presence. Similarly, the jury could
infer from this evidence that Appellant planned to surprise, confront, and injure Heather and
Clemente. Finally, the jury could reasonably conclude from this evidence that Appellant entered
Clemente’s property and his home without Clemente’s permission or effective consent.
Accordingly, the evidence is sufficient to support the jury’s finding that Appellant did not have
Clemente’s consent to enter his residence, and the trial court did not err in denying Appellant’s
motion for directed verdict.
Appellant’s first and second issues are overruled.

Due Process
In his third issue, Appellant argues that the State knowingly presented perjured testimony
through Moises Clemente in violation of his due process rights.3
Standard of Review and Applicable Law
A defendant is denied his right to due process when his conviction is obtained through
the State’s knowing use of false evidence. See Napue v. People of State of III., 360 U.S. 264,
269, 79 S. Ct. 1173, 1177, 3 L. Ed. 2d 1217 (1959); Ex parte Castellano, 863 S.W.2d 476, 481
(Tex. Crim. App. 1993) (holding state violates defendant’s due process rights when it actively or
passively uses perjured testimony to obtain conviction). A due process violation may arise not
only through false testimony specifically elicited by the state, but also by the state’s failure to
correct testimony it knows to be false. Ex parte Ghahremani, 332 S.W.3d 470, 477 (Tex. Crim.
App. 2011).

The testimony need not necessarily be perjured to constitute a due process

violation; rather it is sufficient that the testimony was false. Ex parte Chavez, 371 S.W.3d 200,
The third issue specifically set forth by Appellant in his brief is that the trial court erred by refusing to
include a requested instruction regarding perjury. However, Appellant does not cite to authorities or the record, or
otherwise provide analysis pertaining to the stated issue. Therefore, we decline to address the stated issue because it
is inadequately briefed. See Tex. R. App. P. 38.1(f); Bell v. State, 90 S.W. 3d 301, 305 (Tex .Crim. App. 2002).
However, we will address Appellant's denial of due process claim because the substance of the argument contained
in the brief addresses a constitutionally protected right and an appellate court must construe an appellant’s brief
liberally and review issues that are fairly included within a particular issue or point. See TEX R App P 38 1(f)Ramsey v. State, 249 S. W.3d 568, 581 n.5 (Tex. App.—Waco 2008, no pet.).
’

6

7
208 (Tex. Cnm. App. 2012). That is because a false evidence due process claim is not aimed at
preventing the crime of perjury, which is punishable in its own right, but is designed to ensure
that the defendant is convicted and sentenced on truthful testimony. Id. at 211.
However, only the use of material false testimony amounts to a due process violation.
Id. at 208. False testimony is material only if there is a “reasonable likelihood” that it affected
the judgment of the jury. Ghahremani, 332 S.W.3d at 477. “Whether the perjured testimony
harmed the defendant can be quantitatively assessed by examining the remaining evidence at
trial and the effect of the perjured testimony upon that evidence.” Ex parte Fierro, 934 S.W.2d
370, 373 (Tex. Crim. App. 1996). Because the materiality standard for the state’s knowing use
of perjured testimony is identical to the constitutional harmless error standard, an analysis under
the materiality standard obviates the need to conduct a separate harmless error analysis on direct
appeal. See id.; see also Ramirez v. State, 96 S.W.3d 386, 396 (Tex. App.—Austin 2002, pet.
ref d) (noting that materiality standard in reviewing state’s knowing use of perjured testimony
“is essentially the harmless error standard for constitutional error embodied in the Texas Rules of
Appellate Procedure 44.2(a)”).
When confronted with constitutional error, a reviewing court must reverse the judgment
unless it can conclude that the error did not contribute to the defendant’s conviction or
punishment beyond a reasonable doubt.

Tex. R. App. P. 44.2(a).

Our primary question is

whether there is a “reasonable possibility” that the error might have contributed to the
conviction. Mosley v. State, 983 S.W.2d 249, 259 (Tex. Crim. App. 1998) (op. on reh’g). We
must calculate, as much as possible, the probable impact of the evidence on the jury in light of
the existence of other evidence. Wesbrook v. State, 29 S.W.3d 103, 119 (Tex. Crim. App. 2000).
We take into account the entire record, and if applicable, we may consider the nature of the error,
the extent that it was emphasized by the state, its probable collateral implications, and the weight
a juror would probably place on the error. Snowden v. State, 353 S.W.3d 815, 822 (Tex. Crim.
App. 2011). This requires us to evaluate the record in a neutral, impartial, and even-handed
manner and not in the light most favorable to the prosecution. Harris v. State, 790 S.W.2d 568,
586 (Tex. Crim. App. 1989), disagreed with in part on other grounds by Snowden, 353 S.W.3d
at 821-22.

7

t
Discussion
Reurging his earlier argument attacking Clemente’s credibility, Appellant contends the
forensic evidence established that Clemente committed perjury when he denied that he had
engaged in intimate contact with Heather shortly before Appellant shot them.

He contends

further that the State knew this denial was not true when Clemente made it under oath in front of
the jury. Appellant s argument continues that the State’s knowing presentation of Clemente’s
perjured testimony on this subject, without taking any action to correct the false statement, is a
due process violation that requires reversal of his conviction.
In addressing this issue, we will assume, without deciding, that the State knew Clemente
testified falsely when he denied that he and Heather had recently engaged in intimate contact.
Therefore, our analysis will focus on the materiality element.
Before trial, the State disclosed and produced the forensic reports to Appellant’s counsel
indicating Clemente and Heather had recently engaged in intimate contact. Appellant called the
DPS technician who analyzed the DNA evidence as a witness at trial. Thus, the jury was aware
that Clemente’s denial that he and Heather had not engaged in intimate contact was inconsistent
with the forensic evidence. However, the jury, as the trier of fact, is the sole judge of the
credibility of the witnesses and of the strength of the evidence. Fuentes v. State, 991 S.W.2d
267, 271 (Tex. Crim. App. 1999). The jury may choose to believe or disbelieve any portion of
the witnesses’ testimony. Sharp v. State, 707 S.W.2d 611, 614 (Tex. Crim. App. 1986). The
jury was entitled to disbelieve Clemente’s denial of engaging in intimate contact with Heather
and believe his testimony on other matters.
Additionally, when viewed in a neutral light after disregarding Clemente’s denial, the
remaining evidence shows that Appellant went to Clemente’s residence and entered without
Clemente’s effective consent. The physical evidence shows that Appellant confronted Heather
and Clemente while they were in the bedroom and shot Clemente while he was still in his bed.
The evidence shows further that Appellant sought, found, and killed Heather in a cold and
calculated manner. When Appellant called his father after shooting Clemente and Heather, he
stated that “I did what y’all told me not to do.” When asked what he did, Appellant answered
that he “shot Mo [Moises Clemente] and killed Heather.” At his father’s direction, Appellant
called 911 and told the 911 dispatcher he had gone to his wife’s boyfriend’s home where he shot
the boyfriend in the belly, shot his wife a “bunch of times,” and his wife was not breathing.

8

Appellant told the 911 dispatcher that Heather had asked for a divorce and he knew by looking at
her phone and text messages that she had been seeing Clemente. He told the dispatcher that
Heather had been with “this guy” all day, it “ate him up,” and he was “sick of it.” Appellant
later told Ranger Brent Davis that he went to Clemente’s house looking for Heather and that he
took the handgun with him as he was looking for her. The cumulative force of this evidence,
including Appellant’s own admissions, overwhelmingly supports the jury’s verdict beyond a
reasonable doubt.
Moreover, Clemente s denial that he and Heather had recently engaged in intimate
conduct was not relevant to any element of the offense. Nor can we identify any probable
collateral implications Clemente’s denial might have had.
Based upon our review of the record and our consideration of the relevant factors , we
conclude that the jury did not place any weight on Clemente’s testimony concerning whether he
and Heather had recently engaged in intimate contact. Therefore, there was not a “reasonable
likelihood” that such testimony affected the judgment of the jury. Accordingly, we hold that the
testimony was not material.
Appellant’s third issue is overruled.

Disposition
Having overruled Appellant’s three issues, we affirm the judgment of the trial court.

Greg Neeley
Justice
Opinion delivered June 24, 2016.
Panel consisted ofWorthen, C.J., Hoyle, 1, and Neeley, J.

(DO NOT PUBLISH)

9

